                                                                Issue Date
                                                                December 31, 2007
                                                                Audit Report Number
                                                                2008-NY-0001




TO:        Nelson R. Bregon, General Deputy Assistant Secretary for Community Planning
                                  and Development, D


FROM:       Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: HUD’s Monitoring Controls and Procedures Regarding the Community
         Development Block Grant Program Were Not Adequate


                                  HIGHLIGHTS

 What We Audited and Why

            We audited the U.S. Department of Housing and Urban Development’s (HUD)
            administration of the Community Development Block Grant (CDBG) program.
            The review was performed based on the Office of Inspector General’s (OIG)
            annual audit plan and its strategic plan to help HUD improve its fiscal
            responsibilities. Our audit objectives were to determine whether HUD (1) had a
            system to measure the impact and outcome of its significant investment in
            grantees, which specifically determined whether (a) investments demonstrated
            increases in neighborhood health and (b) the primary CDBG objective of
            developing viable urban communities was attained, and (2) had implemented a
            system to measure the impact of its monitoring efforts for improving grantee
            performance and effectiveness.

 What We Found
            HUD performance measurements did not demonstrate how grantees were
            increasing neighborhood health and attaining the primary CDBG objective of
            developing viable urban communities. We attribute this condition to the fact that
           HUD relied mostly on compliance and output measurements without relating
           these issues to overall grantee performance.

           In addition, while HUD monitoring of CDBG entitlement communities identified
           numerous grantee deficiencies and offered meaningful recommendations for
           corrective actions, grantee performance had often not improved over time. We
           attribute this deficiency to the fact that HUD monitoring was geared to the
           resolution of compliance issues while placing little emphasis on performance
           outcomes.

What We Recommend


           We recommend that HUD’s Office of Community Planning and Development
           (CPD) implement a system to measure the impact of its monitoring efforts for
           improving grantee performance and effectiveness. Specifically, we recommend
           that HUD design a performance measurement system that allows HUD to report
           meaningful outcomes and not just outputs. HUD needs to design a ranking and
           rating system for individual grantees so that HUD and its stakeholders can
           identify and address both good and poor performance.

           Further, we recommend that HUD establish controls to ensure that CPD
           monitoring efforts are streamlined and consistently applied to emphasize high-
           impact activities so that recommendations can focus on promoting improvements
           in program participants’ performance. Also, HUD should assess the impact of its
           CPD monitoring on performance and increase incentives to improve grantee
           performance and compliance by using all of its available sanction authority.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the results of our review during the audit, provided a copy of the
           draft report to auditee officials, and requested their comments on October 18,
           2007. We held an exit conference on October 31, 2007 and the auditee provided
           their written comments on November 14, 2007, at which time they generally
           disagreed with our findings. Appendix A of this report contains HUD’s
           comments, along with our evaluation of the comments.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                      4

Results of Audit

Finding 1: Community Planning and Development Performance and Outcome          6
           Measurements Were Inadequate

Finding 2: HUD Monitoring Did Not Ensure Improvements in Grantee Performance   13



Scope and Methodology                                                          20

Internal Controls                                                              21

Appendixes
   A. Auditee Comments and OIG’s Evaluation                                    23




                                           3
                          BACKGROUND AND OBJECTIVES

Title I of the Housing and Community Development Act of 1974 (42 U.S.C. 5301 et.seq.) provides
the U.S. Department of Housing and Urban Development (HUD) the authority to administer the
Community Development Block Grant (CDBG) program.

The CDBG program provides annual grants on a formula basis to entitled communities to carry out
a wide range of community development activities directed toward neighborhood revitalization,
economic development, and improved community facilities and services. Entitlement communities
develop their own program and funding priorities and consult with local residents before making
final decisions.

No less than 70 percent of the funds expended over a period specified by the grantee, not to exceed
three years, must be used for activities that benefit low-and moderate-income persons.

All CDBG activities must meet one of the following national objectives:

           (1) Benefit low-and moderate-income persons,
           (2) Aid in the prevention or elimination of slums and blight, or
           (3) Meet certain community development needs having a particular urgency.

Metropolitan cities and urban counties are entitled to receive annual grants. Metropolitan cities are
principal cities of metropolitan areas or other cities within the area that have populations of at least
50,000. Urban counties are within metropolitan areas and have a population of 200,000 or more.
The amount of each entitlement grant is determined by statutory formula, which uses several
objective measures of community need including poverty, population, housing overcrowding, age
of housing, and growth lag.

The fiscal year 2006 funding totals for the HUD field offices we reviewed are as follows:

           New York field office            $281,384,2301
           Newark field office              $101,732,431
           Buffalo field office             $ 71,908,435
           St. Louis field office           $ 29,591,500
           Knoxville field office           $ 50,425,066

While the primary objective of the CDBG program is the development of viable urban
communities, HUD’s consolidated plan process combines the application process and includes the
CDBG program with the HOME Investment Partnerships (HOME) and Emergency Shelter Grant
(ESG) programs. These programs share three basic goals of providing decent housing, developing a



1
    Of the $281,384,230 allotted to the HUD New York field office, $185,593,145 was awarded to New York City,
    $48,519,682 was awarded to New York State, and $47,271,403 was allocated to remaining areas under the HUD
    New York field office jurisdiction.


                                                        4
suitable living environment, and expanding economic opportunity to low-and moderate-income
persons.

The objectives of our audit were to determine whether HUD (1) had a system to measure the
impact and outcome of its significant investment in grantees, which specifically determined
whether (a) investments demonstrated increases in neighborhood health and (b) the primary
CDBG objective of developing viable urban communities was attained, and (2) had implemented
a system to measure the impact of its monitoring efforts for improving grantee performance and
effectiveness.




                                              5
                                        RESULTS OF AUDIT

Finding 1: Community Planning and Development Performance and
           Outcome Measurements Were Inadequate
HUD needs to improve its method of measuring the impact and outcome of its investments of
Office of Community Planning and Development (CPD) resources in grantee communities.
HUD performance measurements did not demonstrate how grantees were increasing
neighborhood health and attaining the primary CDBG objective of developing viable urban
communities. Specifically, HUD had not adequately (1) defined the attributes of a viable urban
community and how this goal was to be achieved, (2) reported to stakeholders the outcomes of
CDBG activities as an indicator of program performance, (3) ensured that grantee compliance
related to overall performance, (4) held individual grantees accountable for performance so that
HUD and stakeholders could identify and address both good and poor performance, and (5)
adjusted its Integrated Disbursement and Information System (IDIS) to provide assurances
regarding the integrity of the data provided. We attribute these conditions to the fact that HUD
relied mostly on compliance and output measurements without relating these issues to overall
grantee performance. As a result, HUD could not ensure its stakeholders that the CDBG
program was achieving its primary objectives or that individual grantees were improving over
time and held accountable for poor performance.


    HUD Needs to Improve
    Performance Measurements


                    The Government Performance and Results Act of 1993 requires HUD to provide
                    Congress with annual performance plans and reports. A primary purpose of the
                    Act is to hold federal programs accountable for establishing meaningful goals and
                    measuring whether federal programs are achieving their intended program
                    objectives.

                    After program year 2003, the U.S. Office of Management and Budget (OMB)
                    conducted an assessment of all federal programs to ensure that they were working
                    well for the American people. 2 The Program Assessment Rating Tool’s (PART)
                    rating of federal programs concluded that 3 percent of the 977 federal programs
                    assessed were ineffective. 3 The CDBG program was one of the programs termed
                    ineffective. In summary, OMB found that the CDBG program lacked a clear
                    purpose and lacked short-term and long-term outcome measures. The CDBG


2
    OMB, Government Performance and Results Act of 1993, Section 4.
3
    OMB’s ExpectMore.gov Web site provides that programs receiving an ineffective rating are not using tax dollars
    effectively and have been unable to achieve results due to a lack of clarity regarding the program’s purpose or
    goals, poor management, or some other significant weakness.


                                                           6
                    program was also found to lack transparent information on results. Moreover,
                    OMB found that the CDBG program did not have a limited number of specific
                    long-term performance measures that focused on outcomes and meaningfully
                    reflected the purpose of the program.

                    HUD annually reports performance measurements for the CDBG program in its
                    annual Congressional Budget Justifications, reporting on both actual and planned
                    performance items. Further, HUD has attempted to address the issues raised by
                    OMB by establishing its “Outcome Performance Measurement System for
                    Community Planning and Development Formula Grant Programs.” 4

                    Our review conducted at five HUD CPD offices disclosed that the performance
                    measurements used by HUD did not demonstrate how grantees were increasing
                    neighborhood health and attaining the primary CDBG objective of developing
                    viable urban communities. HUD could not demonstrate to Congress, OMB, and
                    other stakeholders that the CDBG program was achieving its primary objectives
                    and that individual grantees were improving over time.

                    The following subsections provide details on areas that HUD needs to address to
                    ensure that the CDBG program achieves its objectives.

    HUD Needs to Define “Viable
    Urban Community”

                    The development of viable urban communities is the primary objective of the
                    CDBG program. Our review noted that HUD did not have a single definition of
                    what constitutes a viable urban community and there was no such language
                    highlighted in HUD regulations. As mentioned in the OMB PART assessment,
                    the objective is too broad. To be viable, a community must be capable of working
                    and surviving successfully. Clearly, viability is important to HUD because of the
                    considerable investment of public funds made available to communities.
                    Therefore, it would not be in HUD’s best interest to invest funds in a community
                    that is not viable. To achieve a viable urban community, grantees need to focus
                    their efforts and administer their funding in a manner that furthers the goals of
                    attaining sustained success as a functioning community. Consequently, it is HUD
                    that needs to define the parameters of what constitutes a viable urban community
                    to measure grantees’ progress in attaining such goals.

                    The OMB PART assessment provides that the CDBG program statute attempts to
                    describe the means to achieve this end as providing decent housing and a suitable
                    living environment and expanding economic opportunities, principally for persons
                    of low and moderate income. Yet, HUD continued to report on CDBG program
                    accomplishments primarily under two measurements: (1) the number of


4
    Final Notice published in the Federal Register, Vol. 71, No. 44, on March 7, 2006.


                                                           7
          households receiving housing assistance and (2) the number of jobs
          created/retained.

          For HUD to establish meaningful and attainable program performance
          measurements and report outcome results to stakeholders, it first needs to clearly
          define what constitutes a viable urban community so that grantees can report on
          exactly how the activities funded with CDBG funds improved their communities
          and assisted in making them viable or livable.


HUD Needs to Ensure That
Output Counting Relates to
Grantee Performance


          HUD had not established a procedure to measure the extent to which grantees met
          their own goals or the degree to which they met the objectives of the program
          (i.e., outcomes). All five of the HUD CPD Directors interviewed during our
          review concurred that HUD did not ensure that CDBG program funds would
          accomplish the desired outcomes of increasing neighborhood health or improving
          urban communities. HUD continued to report CDBG program accomplishments
          by primarily citing the number of outputs completed, such as housing and job
          creation, yet it did not equate these outputs with grantee performance.

          HUD reported the following for fiscal year 2006:

             •   139,136 households received homeownership assistance and/or
                 homeowner housing rehabilitation from the CDBG program.

             •   38,178 rental households received housing assistance with CDBG funds.

             •   55,967 jobs were created or retained through the use of CDBG funds.

             •   10,166 jobs were created or retained through the use of Section 108
                 program funds.

          The above statistics alone do not represent an adequate indicator of program
          success or good performance as described below.

          (1) Counting housing units and jobs is a poor indicator of grantee and overall
              HUD performance. For example, the largest grantee of one HUD field office
              reported more than 9,000 units of housing rehabilitation in one year in IDIS.
              However, it was later determined that 9,000 rehabilitation units consisted of
              9,000 smoke detectors installed at a cost of approximately $200 each. While
              installing smoke detectors is commendable and potentially life saving, this
              example illustrates the meaningless nature of reporting outputs without


                                           8
           equating them to grantee performance. Further, reporting the outputs of
           housing rehabilitation can be double counted when the unit is assisted with
           both CDBG and HOME program funds. However, statistics do not answer
           key performance questions, such as (1) was the rehabilitation or homeowner
           assistance cost effective, (2) did the rehabilitation improve the structure
           substantially, and (3) was the homeowner able to buy and maintain a house?
           Therefore, HUD did not report the value added or efficiency and effectiveness
           of the housing activity at both the grantee level and the national aggregate
           level.

        (2) HUD’s output reporting of job creation statistics did not relate to overall
            grantee performance. Specifically, statistics did not answer performance
            questions such as (1) what kinds of jobs were created, (2) what kinds of jobs
            were retained, (3) were they part-time or full-time jobs, (4) were they
            minimum wage jobs or high paying jobs, (5) did the jobs have a positive
            impact on the grantee and the community, (6) how long were the jobs
            expected to last, (7) at what cost in resources were the jobs created, and (8)
            could the jobs have been created without CDBG program assistance?

        HUD primarily measured outputs to report program accomplishments. While
        output measurement may be necessary and commendable, it does not equate to
        performance assessment and conclusions as to how grantees are meeting program
        objectives.

HUD Needs to Ensure That
Grantee Compliance Relates to
Performance

        Similarly, HUD’s performance reporting measured various compliance statistics
        and equated the compliance accomplishments with good performance, which may
        not have been the case. For example, one performance indicator reflected that
        95.1 percent of CDBG entitlement funds were used to benefit low-to-moderate-
        income persons. While this percentage is important and noteworthy for
        compliance with the national objectives of the CDBG program, it is not
        representative of performance. This performance indicator does not account for
        the fact that many grantees may be in compliance with the low-to-moderate-
        income requirements; however, these same grantees may not be building viable
        urban communities. Compliance reporting does not ensure that grantees are
        achieving HUD’s goals of providing decent housing and a suitable living
        environment or expanding economic opportunities. Finding 2 contains examples
        of grantees that complied with the CDBG objectives but had not improved their
        performance over many years. Therefore, HUD did not measure how grantees
        performed over time.




                                         9
Grantees Were Not Held
Accountable for Performance

      As stated above, HUD compiled national statistics and reports on aggregate
      outputs, such as the number of households receiving assistance and the number of
      jobs created. However, these statistics did not adequately report how well a
      grantee was actually performing. Based on our review of five HUD field offices,
      we determined that HUD needs to implement a system for ranking and rating
      individual grantee performance. A scoring system much like that used by HUD to
      rate public housing authorities would assist performance measurement in a
      number of ways, such as

           •   Providing a measuring and reporting tool to inform OMB, Congress, and
               other stakeholders on how American cities are achieving the primary
               CDBG objectives, such as building viable urban communities.

           •   Identifying how many grantee communities are good performers and
               how many are poor performers.

           •   Informing grantees on their status in comparison to their peers and
               where improvements are needed.

           •   Assisting HUD in targeting grantees that require sanctions.

      CPD Directors at all five field offices agreed that a ranking and rating system
      would be a useful tool for HUD and its stakeholders. The CPD Directors
      expressed frustration at not being able to hold grantees to a measurable standard.
      For example, a Director stated that one poor performing grantee had improved
      very little over the past few years. The Director expressed the opinion that the
      grantee had a hypothetical score of 5 on a scale from 1 to 10, although several
      years earlier, this same grantee would probably have had a score of 1. Such is the
      case with the City of Troy, New York, which demonstrated minimal improvement
      over the years despite HUD’s monitoring efforts. Without a scoring system to
      hold the grantees accountable, these examples are not reportable.

      The CPD Director in Knoxville stated that although most of Knoxville’s grantees
      were good performers, the Director would like to see a scoring system that is
      objective, with the ability to reward good performers and penalize poor
      performers. Another Director agreed that there was no effective tool for
      measuring improvement of grantees from year to year or over the grantees’ five-
      year plan period. Accordingly, HUD needs to allow real sanctions on poor
      performing grantees such as debarment, limited denials of participation, and
      repayment of ineligible funds from nonfederal sources; or certain high risk
      grantees will never improve. This recommended scoring system could be used as
      a means to apply effective sanctions.


                                      10
        IDIS Data Remain Unreliable

                  For performance reporting, HUD relied primarily on data reported by the grantee
                  in IDIS, while having limited assurances regarding the integrity of the data
                  provided. For years, IDIS has been cited as containing inaccurate, incomplete,
                  and corrupted data. If HUD does not improve the integrity of IDIS data, even a
                  new performance measurement system will not appropriately measure outcomes.

                  IDIS does not produce the complete, accurate, and timely information that HUD
                  should obtain from a computerized database to effectively manage and monitor its
                  CDBG program. IDIS has major design flaws that make it difficult for grantees
                  to enter information accurately and for field office officials and grantees to use
                  the information to monitor performance. 5 The system does not allow for
                  simplified data collection by HUD. There is no required uniformity in the data
                  entered into IDIS by grantees. For example, the City of Newark was able to
                  deobligate funds in IDIS without providing sufficient explanation. The
                  differences in data, structure, format, and timing make it all the more difficult for
                  HUD to appropriately measure outcomes and report on a national level. HUD and
                  grantees need to generate standardized information to measure and report on
                  program outcomes.

                  Although HUD attempted to improve the accuracy and usefulness of IDIS, CPD
                  field offices continued to have major concerns with its reliability. All five of the
                  field offices we reviewed disclosed concerns pertaining to the integrity and
                  accuracy of data reported in IDIS by grantees. In December 2001, HUD began a
                  data cleanup initiative. However, by 2004, it was noted that 196 grantees
                  nationwide had errors and omissions in their IDIS data. Nearly 64,000 CDBG
                  activities in IDIS still contained inaccurate or incomplete accomplishment data in
                  2004.

                  Our audit work in the HUD Knoxville field office further illustrates how IDIS
                  data integrity concerns continued to negatively impact HUD reporting. For
                  example, in 2004, the Nashville/Davidson grantee was cited for having an
                  increasing IDIS data error rate, despite HUD’s data cleanup attempts. At that
                  time, HUD stressed to Nashville/Davidson the importance of IDIS for
                  documenting the effectiveness of programs to Congress. In 2006, HUD again
                  informed the grantee that IDIS showed a lack of reporting on its accomplishments
                  and the insertion of completion data. Accordingly, it is difficult to determine how
                  the Nashville/Davidson grantee performed in terms of meeting annual goals and
                  objectives via its IDIS data.


5
    General Accounting Office Reports, GAO-99-98, dated April 27, 1999, “Community Development: Weak
    Management Controls Compromise Integrity of Four HUD Grant Programs,” and GAO-06-732, dated July 2006,
    “CDBG: Program Offers Recipients Flexibility but Oversight Can Be Improved.”


                                                     11
Conclusion

        HUD performance measurements did not demonstrate how grantees were
        increasing neighborhood health and attaining the primary CDBG objective of
        developing viable urban communities. HUD could not adequately demonstrate to
        various stakeholders that the program was achieving its primary objectives or that
        individual grantees were improving over time and were held accountable for poor
        performance. Accordingly, unless HUD addresses the issues discussed above, the
        CDBG program cannot be appropriately measured for effectiveness.


Recommendations

        We recommend that the Acting Assistant Secretary for HUD’s Office of Community
        Planning and Development

        1A. Adequately define “viable urban community” and how, specifically, this goal
            is to be achieved and measured for poor performance in its CDBG program.

        1B. Design a performance measurement system that allows HUD to report, not just
            outputs, but also meaningful outcomes, such as the extent to which grantees
            meet their own goals and the objectives of the CDBG program.

        1C. Design a ranking and rating scoring system for individual CDBG grantees
            so that HUD and stakeholders can identify and address both good and poor
            program performance.

        1D. Continue to assess and improve IDIS so that data used for reporting can be
            relied upon as an accurate and complete representation of CDBG grantee
            program performance.

        1E. Consider reassessing the future viability of the CDBG program for its ability to
            achieve stated objectives.




                                         12
Finding 2: HUD Monitoring Did Not Ensure Improvements in Grantee
           Performance
While HUD monitoring of CDBG entitlement communities, at times, identified many grantee
deficiencies and offered meaningful recommendations for corrective actions, grantee
performance often did not improved over time. We attribute this deficiency to the fact that HUD
monitoring was geared to the resolution of compliance issues while placing little emphasis on
performance outcomes. Consequently, HUD could not provide assurance that its monitoring
efforts resulted in improved grantee performance.


 Background


              HUD Handbook 6509 provides that monitoring is an integral management control
              technique and a Government Accountability Office (GAO) standard. It is an
              ongoing process that assesses the quality of a program participant’s performance
              over time. Monitoring provides information about program participants that is
              critical for making informed judgments about program effectiveness and
              management efficiency. It also helps in identifying instances of fraud, waste, and
              abuse. The specific purposes of monitoring are to determine whether the program
              participant’s performance meets CDBG program requirements and to improve
              participant performance by providing guidance and making recommendations.

              Our analysis of HUD’s monitoring of our sample of 10 entitlement grantees
              determined that a wide variety of significant deficiencies existed. However, the
              many and often repetitive deficiencies identified for the grantees we reviewed
              indicate that HUD monitoring efforts did not result in desired improvements in
              grantee performance or effectiveness in administering HUD-funded CDBG
              programs and activities. Moreover, many of the deficiencies identified provide
              evidence that the impact and outcome of significant investment of HUD funds in
              these communities had not achieved the desired increases in neighborhood health
              and the development of viable urban communities. Thus, these recurring
              deficiencies and weaknesses precluded efficient and effective administration of
              HUD-funded CPD programs and activities. Some of the deficiencies noted are
              discussed below.

 City of Troy, New York


              The City of Troy, New York’s consolidated plan for fiscal years 2000 through
              2004 identified many priorities, goals, objectives, and strategies, including a
              critical need for a variety of housing options to be made available to fulfill the
              needs of all income levels. However, central to addressing the housing situation
              in the City of Troy was the need to increase affordability of housing and continue
              rehabilitation of the existing housing stock. Moreover, both the 2000 and 2005


                                              13
            consolidated plans identified priority needs in the areas of housing and economic
            opportunities. Despite the needs and goals identified, the City of Troy
            experienced ongoing issues of noncompliance with various requirements of the
            CPD programs that it administered. The noncompliance and deficiencies
            detracted from the City of Troy’s ability to address its stated community needs.

            HUD monitoring conducted in 2001, 2003, and 2005 cited deficiencies and
            findings relating to inadequate monitoring of subrecipients, including one instance
            in which the lack of monitoring resulted in the payment of $44,928 for services
            which did not provide the desired outcome.

            Similarly, HUD monitoring conducted in 2001 noted that the City of Troy’s
            monitoring of a Section 108 loan project was insufficient. In 2005, HUD again
            identified concerns with the same Section 108 loan, now defaulted.
            Consequently, since 2001 the City of Troy has expended more than $1.2 million
            in CDBG funds to repay defaulted Section 108 loans, and HUD anticipated that
            an additional $270,000 in CDBG funds would be expended for the same purpose
            in fiscal year 2007. The significant use of CDBG funds for this purpose
            precluded the City of Troy from bettering the community through other potential
            entitlement activities.

            The City of Troy also continued to experience problems in administering its
            housing rehabilitation revolving loan fund activities in a timely manner.

            As indicated, HUD had cited the City of Troy for many and often repetitive
            deficiencies over the past several years. Clearly, despite ongoing monitoring of
            this grantee, HUD’s efforts did not result in desired improvements in grantee
            performance and effectiveness.

City of Buffalo, New York


            The City of Buffalo, New York’s consolidated plan for fiscal year 2000 identified
            the preservation and rehabilitation of housing as a top priority and cited that
            additional priority needs were economic development and job creation. In May
            2003, the City of Buffalo filed a new five-year consolidated plan for activities
            through April 30, 2008. The new plan continued to cite priority needs as housing,
            public improvements, economic development, and job creation. The City of
            Buffalo’s goal was to transform the economic well-being, environmental health,
            and population of the city, which had decreased from 580,000 in 1950 to 292,600
            in 2000.

            HUD routinely monitored the CPD-funded activities and programs of the City of
            Buffalo and identified many deficiencies and issues that had diminished the City
            of Buffalo’s ability to attain stated goals and priorities. Specifically, HUD
            monitoring of the City of Buffalo’s Section 108 program in 2002 disclosed that



                                            14
           the City failed to ensure that funds were used for eligible activities. In addition,
           Section 108 funds were improperly disbursed to a developer before the execution
           of the HUD contract, and Section 108 funds on hand were used to fund project
           costs before contract approval, which is an ineligible use of funds. Additionally,
           in a July 2003 review of the City of Buffalo’s consolidated plan, HUD determined
           that $5.1 million of the City’s $19.9 million CDBG grant was used to satisfy debt
           repayment of Section 108 loan guarantee assistance that was previously used by
           the City. This represents more than 25 percent of the fiscal year 2003 CDBG
           grant.

           In October 2003, a HUD monitoring cited 19 findings, some of which were (1)
           the lack of basic management systems and budget controls to administer the
           HOME program in accordance with the regulations; (2) more than $1 million in
           HOME administrative costs that could not be supported for eligibility and
           reasonableness; (3) $1.3 million in HOME program funds used for an ineligible
           project in violation of federal regulations; and (4) nearly half of the HOME
           program loans (220 HOME loans) being delinquent, with delinquencies exceeding
           90 days totaling $497,643.

           Apart from the above, an August 2006, HUD monitoring cited the City of Buffalo
           for not conducting formal monitoring of any HOME subrecipients and for not
           spending HOME funds in a timely manner while also failing to report accurate
           and timely data in IDIS. Further, the City’s lack of progress to deobligate and
           reprogram HOME funds as needed resulted with the City’s being approximately
           $2.9 million short of actual HOME commitments by the deadline of December
           31, 2006.

           Despite the frequent and comprehensive monitoring of the City of Buffalo’s CPD-
           funded programs and activities, it is apparent that HUD did not ensure or measure
           whether the City of Buffalo improved from year to year, given the above
           examples of program noncompliance and continued problems. Our analysis of
           HUD monitoring reviews and documents found no evidence of how progress was
           measured. Even as HUD continued to monitor the City of Buffalo, there did not
           appear to be a lasting effect or benefit to the process.

City of Newark, New Jersey

           The City of Newark, New Jersey’s five-year consolidated plan for fiscal years
           2000 through 2005 focused on the priorities of affordable and market rate
           housing, neighborhood services, and supportive public services. The City of
           Newark’s five-year consolidated plan for fiscal years 2005 through 2010
           identified its priority areas as neighborhood services, public service across a
           continuum of care, and economic and housing development services. However,
           HUD monitoring reviews of the City disclosed ongoing problems and deficiencies
           that limited the City of Newark’s ability to effectively administer its CDBG-



                                            15
            funded programs and activities. Examples of deficiencies noted by HUD include
            the following:

                •   A November 2001 technical assistance report noted that the City of
                    Newark had long-standing CDBG timeliness issues.

                •   Monitoring conducted by HUD in July 2002 disclosed that an August
                    1999 finding remained open because the City of Newark failed the
                    established benchmark timeliness ratio when last measured on March 4,
                    2002. Also, HUD identified slow-moving or stalled activities and
                    instructed the City to reallocate the associated CDBG funds to more viable
                    activities.

                •   In October 2002, HUD determined that the City of Newark’s action plan
                    did not describe how the Emergency Shelter Grant matching requirement
                    would be satisfied or how the proposed activities corresponded to the
                    priority needs and local objectives identified in the consolidated plan.

                •   A February 2005 technical assistance report disclosed that the City of
                    Newark was in jeopardy of having funds recaptured for not meeting the
                    2003 HOME commitment requirement, community housing development
                    organization reservation requirement, and 2000 disbursement requirement
                    of October 31, 2005.

                •   HUD’s 2006 risk analysis of the City of Newark disclosed that as of
                    September 30, 2005, commitment of fiscal year 2003 HOME funds
                    showed a shortfall of more than $4 million.

                •   The 2006 technical assistance report disclosed that the City of Newark fell
                    short of the 2003 HOME program commitment and the 2000 HOME
                    expenditure requirements. Therefore, the HUD field office in February
                    2006 notified the City that $920,550 ($833,309 for fiscal year 2003
                    HOME commitment shortfall and $87,241 for fiscal year 2000 HOME
                    disbursement shortfall) would be recaptured. Consequently, the City of
                    Newark’s 2007 HOME allocation was to be reduced by $920,550.

            Although the City of Newark had experienced ongoing issues of not complying
            with various requirements of the CDBG program, HUD’s monitoring efforts did
            not appear to have been effective in ensuring improvements in grantee
            performance.

City of Saint Louis, Missouri

            The City of Saint Louis, Missouri’s November 1999 consolidated plan identified
            neighborhood and economic development as the keys to realizing program goals.


                                             16
                  Decent housing and economic opportunity were also cited as goals. However,
                  housing issues in the City did not improve. In its November 2004 consolidated
                  plan, the City of Saint Louis identified significant housing goals to rebuild the
                  market for housing in its neighborhoods while providing quality affordable
                  housing for its existing lower income residents.

                  In 1999, the HUD Office of Inspector General (OIG) issued a critical audit report
                  on the City of Saint Louis. 6 Among several findings, the audit determined that
                  the City of Saint Louis could not demonstrate that economic development
                  activities met a national objective and that low- and moderate-income jobs were
                  not adequately documented. Further, in 2006, HUD OIG issued another highly
                  critical audit of the City of Saint Louis, noting the same deficiencies noted in the
                  1999 audit. 7 Specifically, this audit disclosed that economic development
                  projects did not meet HUD requirements for retaining and creating jobs and that
                  projects were funded but the City could not demonstrate that jobs for low-to-
                  moderate-income persons were created or retained.

                  HUD and the City of Saint Louis had been fully aware of the conditions that
                  existed with the subrecipient since 1999, yet these conditions still persisted in
                  2006. Our review determined that despite the HUD OIG audit findings, the HUD
                  CPD field office did not actively monitor the subrecipient during the years
                  between 1999 through 2006.

                  Another issue impacting the City of Saint Louis’s CDBG program operations was
                  its extensive use of CDBG funding for the Section 108 program. The HUD Saint
                  Louis CPD field office provided a history from IDIS showing that more than
                  $31.6 million in CDBG funding was used by the City for Section 108 loan
                  repayments from 2002 through 2006.

                  The City of Saint Louis expressed concern over its use of CDBG funding for
                  Section 108 repayments in its 2004 action plan, specifically stating that the 2004
                  Section 108 loan repayment amount would be greater than originally anticipated,
                  thereby resulting in even fewer dollars being available for CDBG program
                  activities. The rate of Section 108 loan repayments was approximately 25 percent
                  of the City of Saint Louis’ annual CDBG entitlement. For example, during
                  program year 2006, the City of Saint Louis disbursed more than $5.4 million in
                  CDBG funds for Section 108 loan repayments, representing 26 percent of the
                  $20.7 million grant. Given the recent trend of decreasing CDBG entitlement
                  funding levels on a national scale, significant use of CDBG funds for Section 108
                  loan repayments could have a negative effect on program performance for cities
                  like Saint Louis.




6
    HUD OIG Audit Report No. 99-KC-244-1002, issued September 28, 1999.
7
    HUD OIG Audit Report No. 2007-KC-1001, issued October 11, 2006.


                                                     17
             Accordingly, it is clear that the City of Saint Louis did not adequately improve in
             key areas of performance, such as job creation and retention, and HUD
             monitoring of the City did not appear to be effective in ensuring improvements in
             grantee performance.

 Similar Deficiencies Noted in
 Other Cities

             Deficiencies similar to those cited above were identified in Patterson, New Jersey;
             Newburgh and Poughkeepsie, New York; Memphis and Nashville, Tennessee;
             and Florrisant, Missouri.

             Apart from the above, HUD CPD field office Directors described other obstacles
             that limited the effectiveness of monitoring to ensure improved grantee
             performance, including the following:

                •   HUD was not required to assess grantee five-year consolidated plan
                    progress once the plan had been completed by the grantee and accepted as
                    adequate by HUD. The field office agreed that in addition to annual
                    program assessments, HUD should assess grantees based on their five-
                    year plans.

                •   Some regions were experiencing a lack of resources or a lack of needed
                    specialists, such as financial technicians. This likely contributed to the
                    differing levels and scope of monitoring we observed at the various field
                    offices.

                •   Sanction authorities were insufficient, difficult to exercise, and overly
                    time consuming.

Conclusion


             Despite HUD’s ongoing efforts in monitoring, issuing reports, and
             communicating corrective actions through recommendations, many grantees
             continued to experience difficulty in administering their HUD-funded activities;
             thus, serious deficiencies continued to recur. Analysis of HUD’s monitoring
             shows that many of the entitlement communities had not adequately demonstrated
             sustained improvements in performance. Nonetheless, HUD’s monitoring efforts
             primarily focused on compliance issues while placing little emphasis on
             performance. Accordingly, the desired outcome of improving grantee
             performance over time, as a byproduct of monitoring, was not supported. HUD
             could improve monitoring effectiveness by more thoroughly communicating to
             grantees the impact of noncompliance on performance. Further, HUD should
             assess grantees based on their five-year consolidated plan performance. Lastly,




                                              18
          HUD needs to hold poor performing grantees accountable by ensuring that it uses
          and enforces all available sanction authority when warranted.

Recommendations

          We recommend that the Acting Assistant Secretary for HUD’s Office of
          Community Planning and Development

          2A.     Establish controls to ensure that CPD monitoring efforts are consistently
                  applied, streamlined to emphasize high-impact activities, and focused on
                  promoting improvements in program participant performance.

          2B.     Establish controls that will assess the impact of CPD monitoring on
                  grantee performance so as to ensure that grantee compliance with
                  recommendations, relates to overall performance.

          2C.     Increase incentives to improve grantee performance and compliance by
                  using all available sanction authority.




                                           19
                          SCOPE AND METHODOLOGY

Our review began as a survey of the HUD CPD office in the Buffalo, New York, field office.
The review was then expanded to include the New York City; Newark, New Jersey; St. Louis,
Missouri; and Knoxville, Tennessee, HUD field offices.

To accomplish our objectives, we obtained background information on the CDBG program and
related field office monitoring efforts. We identified areas susceptible to material problems
including those issues relating to the failure of HUD to demonstrate improvements in grantees’
performance.

To determine the impact of HUD monitoring efforts on measuring and improving grantee
performance, we reviewed HUD’s monitoring of 10 grantees within the jurisdiction of the above
five HUD field offices. We selected two entitlement grantees at each of the field offices and
conducted comprehensive file reviews, including reviews of HUD monitoring conducted during
the past several years. The grantees selected for our review were rated most at risk based on risk
assessments conducted by the field offices.

To identify whether CPD monitoring and performance measurement had helped grantees
improve over time, we reviewed the compliance and performance records for each grantee in our
sample from program year 2007 back to 2002. To accomplish this objective, the following HUD
field office documents and files were obtained and reviewed, including related documents from
the Grant Management System and all correspondence for each grantee: (1) annual community
assessment reports and annual plan reviews, (2) approved annual action plans, (3) consolidated
annual performance and evaluation reports, (4) annual comparative review reports, (5) technical
assistance reports, (6) monitoring and remote monitoring reports, (7) program year review
letters, (8) work plan reports, and (9) HUD consultation reports. We also reviewed prior OIG
audit reports related to some field offices. In addition, we discussed the results of our file reviews
with appropriate HUD field office personnel and CPD Directors. Lastly, we analyzed the results of
our audit work in relation to our audit objectives.

The review covered the period from January 1, 2002, through September 30, 2006, and was
extended as necessary. We performed audit work from October 2006 through July 2007 at the
HUD field offices noted above. The review was conducted in accordance with generally
accepted government auditing standards.




                                                 20
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding of resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               21
Significant Weaknesses


           Based on our review, we believe the following items are significant weaknesses:

           •      HUD had not implemented a system to adequately demonstrate to its
                  stakeholders that the CDBG program was achieving its primary objectives
                  or that individual grantees were improving over time and were held
                  accountable for poor performance (finding 1).

           •      HUD had not implemented a system to measure the success of grantee
                  activities over the five-year consolidated plan period; thus, HUD could not
                  provide assurance that its monitoring efforts resulted in improved grantee
                  performance (finding 2).

           •      HUD had not established a method to measure grantee improvements from
                  both a compliance and performance perspective; thus, HUD was limited in
                  its ability to reasonably measure the impact of its monitoring efforts
                  (findings 1 and 2).

           •      HUD had not established controls and procedures to ensure the validity
                  and reliability of data provided by grantees in IDIS; thus, HUD had limited
                  assurances on the integrity of the data provided and could not assure that the
                  CDBG program was achieving its goals (findings 1 and 2).




                                            22
                        APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation      Auditee Comments




Comment 1



Comment 2




                            23
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3



Comment 4




                         24
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 5


Comment 6


Comment 7



Comment 8




Comment 9



Comment 10




                         25
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 10

Comment 11



Comment 12




Comment 13




Comment 14




                         26
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 14



Comment 15




Comment 16




Comment 2


Comment 17




                         27
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 17


Comment 18




Comment 2




Comment 19




Comment 2




                         28
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 20




Comment 21




Comment 22




                         29
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 22




Comment 23




Comment 22




                         30
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 22




Comment 24




                         31
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 24




Comment 25




Comment 26




Comment 27




                         32
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 27




Comment 28




Comment 29




                         33
                         OIG Evaluation of Auditee Comments

Comment 1   CPD officials disagree with the audit findings stating that the draft audit is based
            on incorrect premises. Officials contend that OIG does not understand the CDBG
            program, fails to coherently and logically assemble factual evidence to support its
            conclusions and has not recognized corrective actions already taken by CPD.
            These assertions are contrary to the facts and conclusions contained in our audit
            findings. The draft audit is based on correct premises drawn from interviews with
            CPD directors and staff, review of CPD files, monitoring reviews and our
            extensive knowledge of the CDBG program, our conclusions are supported by
            factual evidence, and corrective actions in place were recognized and taken into
            consideration. Thus, CPD officials have attempted to disparage the audit report
            instead of addressing the core issues and conclusions of the report, which is to
            ensure that CDBG grantees are improving their communities with HUD funds.

Comment 2   CPD officials contend that the draft audit report appears to be based on an OMB
            assessment conducted in 2003 which identified the CDBG program as ineffective.
            Further, officials question defining how CDBG funding builds viable urban
            communities and state known facts about the program’s flexibility that allows
            local decision making to support their local needs. In addition, officials
            misinterpret the report saying that OIG would have all 1,187 communities eligible
            to receive CDBG funds in 2007 follow a single definition of viable urban
            community. However, we remind CPD officials that the development of viable
            urban communities is the primary objective of the CDBG program. Thus,
            officials are inappropriately linking the entitlement nature of the program with the
            need to define a viable urban community. Logic dictates that HUD should strive
            for a working definition of a viable urban community to be utilized in measuring
            how grantees are progressing in achieving the primary program objective. The
            conclusion drawn by CPD officials confuses the common goal of all grantees
            achieving viable urban communities with the vastly different methods that
            individual grantees may use to meet their various local needs while attaining
            HUD objectives. The mere fact that grantees have programmatic flexibility at
            their disposal does not guarantee that their program will achieve CPD objectives.
            The fact that all grantees are unique and enjoy programmatic flexibility only
            enforces the idea that HUD needs to be able to link grantee local compliance to
            the grantee’s overall performance in meeting its local needs. Thus, HUD should
            be able to measure performance at the grantee level.

            Our field work disclosed that several grantees have not measurably improved over
            many years, despite large CDBG investments and substantial local discretion.
            Thus, OIG maintains that CPD needs to clearly define what constitutes a viable
            urban community so that grantees can report on exactly how their activities
            improved their communities and assisted with making them viable or livable.

Comment 3   CPD officials state their disagreement to an incorrect quote regarding the lack of
            correlation between compliance and performance. At no point in our audit report



                                             34
            do we provide the opinion that there is no correlation between compliance and
            performance. We maintain that compliance with national objectives is important
            and noteworthy, but HUD needs to relate a grantee’s general compliances to its
            overall performance in meeting CDBG objectives. As finding two of the report
            supports, many grantees may be in compliance with the low to moderate income
            national objective, but have not improved performance over many years.

Comment 4   CPD official’s quotation that OIG believes that counting housing units and jobs
            are poor performance indicators and that smoke detectors are meaningless is false
            and misleading. Further, CPD officials question our conclusion regarding the
            reporting of accomplishments under several programs in instances where there are
            multiple funding streams. The draft report actually states that installing smoke
            detectors is commendable and potentially life saving, however the reporting of
            outputs, including housing and jobs, without equating them to grantee
            performance is meaningless. The example provided in the draft report is not the
            life saving nature of the smoke detectors, but rather the meaningless nature of
            equating such rehabilitation costs to grantee and/or nationwide performance
            statistics. In regards to the reporting of accomplishments, the officials seem to
            confuse the ability to complete an activity with the overall effectiveness of the
            activity. We remind CPD officials of the need to be able to measure the relative
            effectiveness and efficiency of their programs, as required by the Government
            Performance and Results Act of 1993. Further, if the activity has more than one
            source of funding, CPD needs to ensure that they are not double counting their
            successes.

Comment 5   CPD officials contend that the OIG believes that a scoring system, like that used
            by HUD to rate public housing authorities, will assist performance measurement
            and that, without it, grantees will not be held accountable. Our report states that a
            scoring system would assist performance measurement in a number of ways, as
            detailed on page 10 of our report. As noted in Comment 2 above, the CDBG
            program is inherently flexible with local decision making to address local needs.
            Thus, performance measurement tools should assess success and failure at the
            local grantee level.

Comment 6   CPD officials contend that the facts as presented in finding 2 are incorrect,
            unsubstantiated, and the summation of monitoring problems lacks a basis for the
            conclusions drawn. Our conclusions were based on well documented records of
            facts about CPD grantee program activities, drawn substantially from CPD field
            office staff monitoring. In fact, we commended HUD for its ability in identifying
            many grantee deficiencies and for offering meaningful recommendations for
            corrective actions. Nonetheless, it is our contention that since several grantees
            have experienced numerous, often repetitive, and serious deficiencies over a
            period of several years, these facts substantiate our conclusion that HUD’s
            monitoring efforts have not provided assurance of improvements in grantee
            performance.




                                             35
Comment 7   The fact that HUD has identified many issues and deficiencies associated with the
            City of Buffalo that continued to occur over several years, clearly indicates that
            the city’s ability to attain stated goals has been diminished. Moreover, since HUD
            continuously cited this grantee for program noncompliance and continued
            problems throughout the audit period reviewed, our conclusion that there did not
            appear to be a lasting effect or benefit to HUD’s monitoring processes, is both
            clear and valid.

Comment 8   CPD officials address issues relating to the Cities of Newark, NJ and Saint Louis,
            MO. Specifically, officials contend that report details pertaining to the City of
            Newark, NJ does not provide a basis for the OIG’s conclusion that HUD’s
            monitoring was ineffective. We disagree with this contention since the audit
            report cites several examples of deficiencies noted for the City of Newark, NJ that
            continued to occur over several years and throughout our audit period; which
            supports our conclusion that the monitoring does not appear to be effective.

            Further, regarding St. Louis audit report number 99-KC-244-1002, which
            disclosed that the grantee’s activities had not demonstrated low to moderate
            income benefit; this statement of fact was never overruled by the deputy
            secretary. To the contrary, even though the grantee thought the activity would
            create 325 jobs for low-and moderate-income persons, the facts showed that no
            such jobs were created. Thus, the fact that CPD allowed the grantee to substitute
            a different national objective for the activity, since the grantee could not
            demonstrate low to moderate income benefit, does not make this issue overruled.

            In addition, officials question how the City’s failure to describe match
            requirements for the ESG program in its Consolidated Plan bears any relationship
            to the CDBG program. We must remind CPD officials that HUD’s Consolidated
            Plan includes the CDBG program with the HOME Investment Partnership and
            Emergency Shelter Grant (ESG) programs, all of which are used in achieving the
            grantees priority needs. Thus it was CPD Newark field office officials who noted
            that the City’s action plan did not describe how the ESG matching requirement
            would be satisfied and how the ESG proposed activities correspond to the priority
            needs identified in the consolidated plan. Obviously, attaining ESG matching
            fund requirements is an important element of a successful ESG program, as is
            ensuring that funded activities will address the grantees overall priority needs.

            Lastly, Officials commented on the timeliness issue discussed in the finding.
            They contend that finding 2 contradicts a July 2006 GAO report, which states that
            HUD timeliness policy has reduced the number of entitlement communities that
            are slow to expend funds. Our finding does not contradict the GAO report, it
            points out that timeliness issues continued to plague the City of Newark over
            several years, and therefore, monitoring may not have been effective. However,
            judging by the comments of CPD officials, HUD is equating a reduction in the
            number of communities that are slow to expend funds to mean an elimination of
            the problem.



                                            36
Comment 9     CPD officials state that housing is a principle use for CDBG funds and it would
              not be unexpected to continue to see this as a goal in successive consolidated
              Plans for the City of St. Louis. However, officials fail to consider the entire
              context of having the top priority of housing as a successive goal. The City of
              Saint Louis, MO. cited in its 1999 Consolidated Plan that Housing is top priority
              and need. Further, the City expressed difficulty in concluding whether or not the
              level of substandard buildings was greater in 1999 than it was in 1994. Further, in
              2004 the City of Saint Louis cited that the need for quality affordable housing
              among low and moderate income families remains significant, leading to the
              conclusion that housing issues in the city did not improve from 1999 to 2004.
              Thus, HUD officials failed to identify the success of St. Louis’ housing work and
              whether HUD’s investments in St. Louis’ housing market increase neighborhood
              health in St. Louis.

Comment 10 CPD officials contend that the draft audit report is inconsistent in regards to the
           counting of jobs and job creation and such conclusions are based on problems
           with Section 108 loan repayments when the consolidated plan contained
           significant housing goals. However, CPD officials failed to mention that the City
           of Saint Louis has undertaken numerous economic development projects that did
           not meet HUD requirements for retaining and creating jobs, and that projects were
           funded, but the city could not demonstrate that jobs for low-to-moderate-income
           persons were created or retained. Thus, the City failed to improve in key areas of
           performance, such as job creation and retention. Secondly, the CPD officials
           appear to suggest that report conclusions pertaining to job creation and retention
           issues were based on problems with Section 108 loan repayments. The Section
           108 issues were presented to show the impact and extent to which loan
           repayments have reduced the number of dollars available for other CDBG
           program activities. Even the City of Saint Louis in its 2004 action plan expressed
           concern over its use of CDBG funding for Section 108 loan repayments,
           specifically stating that these repayments would result in even fewer dollars being
           available for CDBG program activities.

Comment 11 CPD officials cite obscure logic and lack of evidence to support deficiencies
           noted in other cities. As explained in the report background section, we analyzed
           HUD monitoring of a sample of 10 entitlement grantees. As such, in the spirit of
           preparing a concise finding, detailed discussions of deficiencies was limited to
           four of the 10 grantees reviewed. These similar repeat findings for the other six
           grantees were obtained from CPD officials own monitoring reports, however
           since we have substantial supporting evidence, a synopsis of the deficiencies
           noted can be provided upon request.

Comment 12 CPD officials express confusion in regards to the logical connection of the report
           conclusions. The report findings and recommendations are presented to offer
           HUD sound advice and recommendations on how to improve the effectiveness of
           their monitoring efforts. Naturally, if HUD assesses the impact of its CPD



                                              37
              monitoring on performance and increases incentives to improve grantee
              performance and compliance by using all of its available sanction authority, the
              ability of grantees to improve performance would certainly be enhanced.
              Moreover, by more thoroughly communicating to grantees the impact of
              noncompliance on performance, grantee’s would have a better understanding of
              how noncompliance affects performance, and it would also emphasize and
              reiterate to grantees the merits of continually striving for improved performance.

Comment 13 CPD officials contend that OIG takes HUD to task for failing to ensure actions
           that are not required. Specifically, there is no requirement to measure the impact
           of HUD monitoring, measure increases in neighborhood health, implement a
           system for achieving the primary objective, improve grantee performance or hold
           them accountable for poor performance. Officials state that they have a number
           of systems in place to determine the extent of meeting the primary objective of the
           program and identifying and addressing deficient performance. However, they
           state that the draft audit report suggests that HUD should ignore or reinterpret the
           GAO internal control standard for monitoring which is defined as assessing the
           quality of performance over time. On the contrary, our conclusions pertaining to
           measuring grantee performance over time, is consistent with GAO standards. The
           GAO Standards require that internal control monitoring assess the quality of
           performance over time and ensure that the findings of audits and other reviews are
           promptly resolved. As such, the controls that CPD states are not required should
           be developed to enhance the quality of the CDBG program in ensuring that
           grantee and HUD goals are achieved.

Comment 14 CPD officials content that OIG did not give HUD credit for the performance
           measurement system that was designed in consultation with stakeholders.
           Contrary to this assertion, we acknowledge that CPD has established its Outcome
           Performance Measurement System for Community Planning and Development
           formula grant programs on page 7 of the audit report. However, since this
           performance system is just now providing its first full year of data, which has not
           yet been analyzed by HUD, and is based upon grantee data in IDIS, an
           information system that continues to provide unreliable data; we determined that
           CPD has not adequately demonstrated that the CDBG program was achieving its
           primary objectives, or that individual grantees were improving over time and were
           held accountable for poor performance.

Comment 15 CPD officials provide a listing of actions taken by HUD that they contend should
           be noted in the audit report. Specifically, officials refer to the revised CPD
           Monitoring Handbook 6509.2 Rev-5 and to its ranking and rating risk analysis
           process. While we are aware of HUD’s revised handbook and risk analysis
           process; these actions do not address the fact that CPD needs to focus its
           monitoring on ensuring that grantee general compliances relate to overall
           performance and the achievement of both grantee and CDBG goals.




                                               38
Comment 16 CPD officials state that the report shows a lack of understanding of the program
           and OIG expects HUD to answer key performance questions. Thus, officials
           question why OIG wants a cost effective use of CDBG funds, the importance off
           lasting job creation, and rehabilitation that is substantial. We refer CPD officials
           to the Government Performance and Results Act (GPRA) of 1993, which provides
           Congress objective information on the achievement of statutory objectives and the
           relative effectiveness and efficiency of Federal programs and spending. We
           question the fact that it appears that CPD officials through their comments do not
           want to be able to measure the effectiveness of CDBG dollars invested and
           whether the funds have a lasting benefit.

Comment 17 CPD officials state that CDBG funds are provided to units of local government
           and question under what circumstances does the Department debar, or impose a
           limited denial of participation on a unit of government. We recommend that
           HUD explore all available sanctions when they are aware of non-compliance
           and/or poor performance. Grantees must be held accountable for CDBG funding
           that is misappropriated and one way HUD can hold them accountable is through
           sanctions.

Comment 18 CPD officials state that the Consolidated Plan process does not combine the
           CDBG program with HOME and ESG, but rather combines the application
           process. However, every grantee we reviewed included the CDBG program with
           HOME and ESG in their Consolidated Plan. Thus, explaining how these programs
           will aide in addressing their priority needs.

Comment 19 CPD officials cite socioeconomic indicators that already exist and various
           performance indicators as effective measurement tools to provide a picture of the
           well being of the nation’s communities. However, currently HUD has not
           adequately reported on whether or not various grantees are effectively using
           CDBG funds in developing viable urban communities. Thus HUD’s current
           performance indicators do no show nor measure how CDBG funds are making an
           impact in helping grantees to meet its priority needs and in creating viable
           communities.

Comment 20 CPD officials refer to the CAPER and consolidated planning process as a critical
           tool for grantee management. While we agree that the CAPER and consolidated
           planning process are important and commendable tools for HUD management,
           these documents tend to report outputs and not outcomes; thus, they do not
           measure the success or effect of the consolidated plan activities completed. As
           detailed in finding 2, our review disclosed numerous examples of grantees that
           have reported annually via CAPERs, but have not measurably improved their
           communities over time. Further, we recommend that HUD begin to measuring
           grantee performance over its 5-year Consolidated Plan period to ensure that they
           are working to achieve local goals.




                                              39
Comment 21 CPD officials contend that the March 2006 implementation of the performance
           measurement framework is having a significant impact with regard to their
           understanding of the impact of CDBG funds at the local level. However this
           framework is so new that the first year of data is just now being reported for FY
           2007. Accordingly, since the data has not yet been fully analyzed by HUD, there
           is no indication that the new measurement tools will be able to measure grantee
           performance, effectiveness of output activities, and efficiency in using Federal
           funding. Thus, although we acknowledge CPD’s new system, the data is still out
           on its success.

Comment 22 CPD officials state that HUD has limited sanction authorities to hold grantees
           accountable for performance against stated goals and that legislation reform has
           been forwarded to Congress. We strongly agree with HUD’s efforts to address
           current sanction shortcomings with reform legislation attempts, however, until
           such reforms are implemented, HUD needs to effectively utilize the sanctions that
           are currently available, and continue to pursue Congress on this issue.

Comment 23 CPD officials contend that a ranking and rating system for individual grantees is
           not feasible due to the program’s complexities. The official’s contention appears
           to confuse program flexibility and local decision making with the need to measure
           good and bad performance at the grantee level. We stand by the fact that five
           CPD Directors agreed with our recommendation that a ranking and rating of
           grantee performance would be a useful tool for HUD and its stakeholders. This
           recommendation addresses an issue of vital importance to HUD, since there is
           currently no objective system for comparing good and bad grantees.

Comment 24 CPD officials state that the draft audit report section that refers to IDIS as
           extremely outdated and unsupported, and that our charge that IDIS has major
           design flaws is totally unsupported and should be removed from the report.
           Officials continue on to cite the numerous updates and improvements to IDIS as
           proof that IDIS is now reliable. However, we stand by our report conclusions.
           Although there have been some improvements to the IDIS, HUD has not
           demonstrated that IDIS provides accurate and complete data, as confirmed by
           HUD field office officials during our review, and CPD’s comments that they are
           still assessing grantee reporting for FY 2007.

Comment 25 CPD officials state that legislation has been proposed to improve the targeting of
           funds to needier communities, enhance HUD’s ability to hold grantees
           accountable for performance, and establish a competitive component to the
           CDBG program as an incentive for grantees to target funds to high need areas.
           Thus, the proposed legislation is acknowledgment by HUD that improvement is
           needed in several areas. We concur that HUD needs improvement in these areas
           and that implementation of our recommendations in this report would assist in
           doing so. For example, the rating and ranking of grantees objectively for
           performance would assist in objective determinations for providing incentive
           funding and grantee accountability.



                                              40
Comment 26 CPD officials state that the administration and Congress has already assessed the
           viability of the CDBG program by deciding to continue funding. In addition, the
           officials state that Congress views CDBG as a unique vehicle to provide funding
           for disaster recovery purposes. However, the officials confuse the utilization of
           CDBG as a conduit for disaster funding in New York and the Gulf Coast as a real
           world assessment of the viability of the CDBG program. Based upon the
           conditions disclosed in our audit, we conclude that HUD should continue to
           improve the controls over and assess the viability of the CDBG program and
           advise Congress and the administration accordingly.

Comment 27 CPD officials express confusion regarding our recommendation to establish
           controls to ensure that CPD monitoring efforts are consistently applied,
           streamlined and focused on improvement. Further, the officials contend that our
           report labels monitoring for compliance as a deficiency. To the contrary, the
           recommendation is both clear and concise. It is important to note that the
           recommendation is not suggesting that HUD ignore their statutory requirement to
           assess regulatory compliance. Rather, the recommendation emphasizes the need
           for HUD to focus on promoting improvements in program participant
           performance. Ironically, the officials are conveniently silent with regard to their
           own stated policy contained in Handbook 6509, which provides that monitoring is
           the principal means by which the Department assists program participants in
           improving their performance. Thus, HUD should not just monitor for
           compliance, but they must relate the compliance with the grantee’s overall
           performance to ensure that stated goals are achieved.

Comment 28 CPD officials state that assessing the impact of monitoring on performance
           resulting from grantee compliance with the recommendations occurs each year as
           part of the grantee risk analysis process. Thus, field offices can conduct follow-
           up monitoring to assess whether or not grantee implemented corrective actions
           impact compliance and performance. While we are well aware that HUD can
           conduct follow-up monitoring, to ensure that HUD assesses the impact of
           monitoring on performance, these actions which are responsive to our
           recommendation need to be documented. Currently, monitoring reports are not
           adequately relating grantee compliance to overall performance and the
           achievement of stated goals.

Comment 29 CPD officials do not disagree with the recommendation to increase incentives to
           improve grantee performance and compliance by using all available sanction
           authority. Rather, officials state that available sanction authority on CDBG
           grantees is limited to that prescribed by CDBG regulations. Accordingly, we
           stand by our recommendation that HUD explore all available sanctions when they
           are aware of non-compliance and/or poor performance, and that HUD should
           continue to advise congress on the need for better sanctions.




                                             41
